OIG Investigative Reports, Schrenko Co-Defendant Botes Found Guilty By Jury After Schrenko Pleads Guilty, Temple Re-Arrested and Jailed
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
FOR IMMEDIATE RELEASE
May 24, 2006
http://www.usdoj.gov/usao/gan/
U. S. Attorney David E. Nahmias
Northern District of Georgia
75 Spring Street, S.W. - Suite 600
Atlanta, GA 30303-3309
Contact: Patrick Crosby
Tel: 404-581-6016
Fax: 404-581-6160
SCHRENKO CO-DEFENDANT BOTES FOUND GUILTY BY JURY AFTER
SCHRENKO PLEADS GUILTY, TEMPLE RE-ARRESTED AND JAILED
Atlanta, GA - A. STEPHAN BOTES, 48, of Alpharetta, Georgia, was found
guilty today by a federal jury on 15 counts of conspiracy, wire fraud, and theft
of public funds. BOTES is a co-defendant of former State School Superintendent
LINDA C. SCHRENKO, 55, of Grove Town, Georgia, who pleaded guilty to fraud charges
approximately a week and a half into the three week trial before United States
District Judge Clarence Cooper. A codefendant in the case, MERLE TEMPLE, 57,
of Evans, Georgia, pleaded guilty to related fraud charges on January 10, 2005.
He was arrested again on May 10, 2006, on charges of attempting to obstruct
justice by offering to tailor his testimony to assist SCHRENKO. Another co-defendant
in the case, PETER STEYN, 61, of Woodstock, Georgia, a business partner of BOTES,
was found not guilty by the jury. Judge Cooper ordered BOTES to be detained
pending his sentencing hearing.
United States Attorney David E. Nahmias said, "We are pleased with the conviction
obtained today and with the guilty plea entered by Ms. Schrenko, who will now
face an eight year federal prison sentence. The defendants were stealing funds
meant for the education of Georgia's children and using those funds for a political
campaign, personal gain, and in Ms. Schrenko's case, cosmetic surgery. We will
continue to seek to hold accountable those who violate the public's trust."
According to Nahmias, the plea agreements and evidence in the case: In the
summer of 2002, SCHRENKO, who at the time was the State School Superintendent
of Georgia, and her former Deputy Superintendent, TEMPLE, conspired with BOTES,
a co-owner of a computer consulting company, to fraudulently obtain over a half
million dollars of federal funds administered by the Georgia Department of Education.
The evidence showed SCHRENKO personally ordered the Georgia Department of Education
to issues checks in amounts just under $50,000, totaling over $500,000, to various
companies partially owned and controlled by BOTES purportedly to provide computer
licenses and services to the Atlanta Area School for the Deaf, the Georgia School
for the Deaf, and the Governor's Honors Program.
SCHRENKO personally ordered payments to BOTES' companies at a time when no
services had been performed and no contracts for services existed. SCHRENKO
directed the Department to issue 11 checks on one day, July 24, 2002, in amounts
just under $50,000, the maximum amount allowed by her signature alone. The monies
ostensibly were to go for service to be provided to the Atlanta Area School
For the Deaf, Georgia School For the Deaf, and the Governor's Honors Program.
However, products and services were not provided, and approximately half of
the fraudulent proceeds were secretly funneled into SCHRENKO'S campaign and
to third parties to pay expenses for the campaign. The indictment charged that
after SCHRENKO's unsuccessful campaign to run for governor, she used $9,300
of the Education funds to pay for her own cosmetic surgery.
Sentencing for SCHRENKO is set for July 12, 2006. A sentencing date for TEMPLE
has not yet been set. TEMPLE remains in federal custody without bond while awaiting
sentencing. Sentencing for BOTES has been set for August 22, 2006. All of the
sentencings will be before Judge Cooper.
Lester Fernandez, Special Agent In Charge, United States Department of Education,
Office of the Inspector General, noted in his statement the words of Inspector
General John P. Higgins, Jr., saying in part, "I want to commend all the agents,
auditors, and attorneys working on this case and, in particular, the diligence
of the staff of the Georgia State Auditor in uncovering the improprieties that
led to this investigation. We will continue to work with the FBI and other federal
and state officials to protect the integrity of federal education dollars."
FBI Special Agent In Charge Greg Jones said, "As citizens of Georgia, we expect
our elected officials to be faithful stewards of taxpayer's money and of the
public's trust. When that trust is betrayed, citizens can expect that the FBI
will work diligently along with the United States Attorney's Office to seek
justice and restore public confidence in government. We want to thank our colleagues
at the United States Department of Education for their assistance in this investigation."
The case is being investigated by Special Agents of the U.S. Department of
Education, Office of the Inspector General, and the FBI.
Assistant United States Attorneys Russell G. Vineyard and Daniel A. Caldwell
are prosecuting the case.
Top
Printable view
Share this page
Last Modified: 05/30/2006
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov